IN THE SUPREME COURT OF THE UNITED STATES

NOB HILL GENERAL STORES, INC.
Petitioner
vs.

No:

20-1494

NATIONAL LABOR RELATIONS BOARD
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
May 26, 2021
cc:
DAVID A. ROSENFELD
WEINBERG ROGER & ROSENFELD
1375 55TH ST.
EMERYVILLE, CA 94608
HENRY F. TELFEIAN
LAW OFFICE OF HENRY F. TELFEIAN
P.O. BOX 1277
KINGS BEACH, CA 96143

